Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




MINIMIZING RESTRAINTS IN NURSING
   HOMES: A GUIDE TO ACTION




       ~t- " SERViCes


                        Richard P. Kusserow
                        INSPECfOR GENERAL
       ~.t
                            OEI -01-91-00840
                        . - ..                                                   ......................
                                    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...
                        ..................................................




                         TABLE OF CONTENTS

IN1RODUCI10N                                                                                                                          .. 1




ESTABliSHING             A COMMITMENT TO RESTRAINT                                        REDUCI10N                 . . . . . . . . . 3


REDU~G             RES~                       ......................................... 7



MAINTAINING             A RESTRAINT-                 FREE       HOME


CONCI...USION




APPEND          IX A


Methodology ................................................... A-



APPENDIX 





Homes Selected for Site Visits ...................................... B­



APPENDIX C

Bibliography.................................................... C-

                          INTRODUCTION€
PURPOSE

    In this guide , we aim to assist nursing homes in minimizing the use of physical and
chemical restraints. Toward that end , we present lessons drawn from the experiences
of nursing homes that have made progress in reducing restraints.

BACKGROUND

     Since October I990, the nation s nursing homes have had to comply with a new
and significant Federal mandate: that nursing home residents have " the right to be
free " from physical and chemiCal restraints not required to treat their medical
symptoms. This mandate is part of a sertes of reforms intended to improve the quality
of care in nursing homes that were enacted by Congress in the Omnibus Budget
Reconciliation Act of I987 (OBRA- 87).

     Congress imposed this requirement because of concerns about widespread use of
physical and chemical restraints in nursing homes. Both types of restraints restrict a
person s ability to move about freely. Examples of physical restraints include hand
mitts , vests that tie residents to their chairs or beds , and restrictive chairs , such as
gerichairs with lap trays and small wheels that limit mobility. Examples of chemical
restraints include psychoactive drugs , which control mood and behavior.

    In carrying out the new requirement , nursing homes have faced many operational
challenges. ' Some of these have involved confusion about how restraints are defined.
Others , probably more consequential , have involved the dynamics of changing long
established practices--of introducing new routines and ways of thinking about the care
of nursing home residents.

MElli 0 DO   LOG Y

    In this guide , we report on the lessons learned by nursing homes engaged in
reducing the use of physical and chemical restraints. We did not evaluate the
outcomes of their approaches to restraint reduction, nor do we address how the State
surveyors might interpret their efforts. Rather, we simply report lessons captured
from their collective experiences.

     The lessons we present come primarily from the experiences of seven nursing
homes we visited in three States (see appendix B). To a lesser degree , they come
from telephone and personal conversations we held with representatives of other
homes and of national organizations in the field , and from our review of the published
literature and guidebooks.
    In selecting the seven homes for our on-site case studies , we sought to maximize
the relevance of their experience to other homes. We did this by selecting homes that
had received no special funds for reducing restraints and that had continuity in their
nursing and administrative staff. We also chose homes that had some success in
reducing restraints , that had between 5I and ISO beds, and at least 50 percent
Medicaid residents. Finally, we chose homes in three States in the Northeast and the
Midwest to ease our travel arrangements. (See appendix A for more details on our
methodology. )

    We present our lessons in three areas that reflect the operational stages of
restraint reduction. These stages involve (I) es~ablishing a commitment to restraint
reduction , (2) reducing restraints, and (3) maintaining a restraint- free home. In each
area , we pose a number of basic questions that we found nursing homes regularly ask.
Our answers reflect the lessons that those working in the homes we visited have
learned. In some instances we present our answers sequentially; however, many of the
steps toward restraint reduction require ongoing attention.

    We present our lessons in a question and answer format. We direct these
questions and answers to those in nursing homes who are leading their homes ' efforts
to reduce restraints. These leaders may include administrators, nursing directors
charge nurses , certified nursing assistants , therapists , social workers , activity specialists
and others. Hereafter, our use of the pronoun "          " in a question refers to the
leadership within the nursing home , while " " in an answer refers to the Office of
Inspector General study team.
                                                                 , "





  ESTABLISHING A COMMITMENT TO

      RESTRAINT REDUCTION


We have been using restraints and have always                    considered ourselves to be providers of
good care. OBRA is a big change for us. How do we get everyone to want to reduce
restraints?

       Stress that times have                        Both mobility and personal autonomy are
       changed. Just as a physician                 threatened by the use of involuntary

       no longer routinely removes                  restraints. No controlled trial has yet
       a child' s tonsils , now we                  demonstrated the ability of restraints to
       know that restraints should                  prevent injury, but a large body of literature
       no longer be used routinely                  attests to their adverse effects, rncluding
       because their risks-­                        strangulation, increased agitation, and the
       incontinence , stiffness , loss              many complications of immobilization. 


       of bone mass , and                           (1.   Francis Using Restraints in the Elderly Because of Fear
                                                                       New Eneland Journal of Medicine
       strangulation , among others-­               of Litigation,

                                                    13 (1989):       870)
                                                                                                         320, no.

       outweigh their benefits.


       Stress the residents '       quality
       of life: removing restraints                 One director of nursing found her             staff
       can make them happier and                    skeptical about removing physical restraints
      restore their dignity.                        safely. She surveyed them confidentially
                                                    using questions from the Kendal
      Have everyone try on a                        Corporation " Untie the Elderly" program.
      physical restraint for 10 or
                 She asked about their training in the use of
       IS minutes so each can                       restraints, when they use restraints and why,
      really understand what it is                  how they felt about restraint use, and how
      like.                                         they thought restraint elimination would
                                                    affect their jobs. After reading their
      Invite staff from homes that                  responses, she was better equipped to address
      have already reduced                          their concerns and restraint practices
      restraints to give a                          individually.
      presentation on how
      restraint reduction has
      worked for them , or arrange visits to those homes. Residents of nursing homes
      pose similar challenges. Seeing or hearing about a peer s experiences
      demonstrates that restraint reduction is possible. And such objections as " but
      you don   t understand what    residents are like " are less likely to be made.
                                              our
Involve everyone in the home
because each has a role to play.      A director of nursing led her home
As restraints are reduced , it         restraint reduction efforts alone. When
becomes vital that everyone            the home became restraint-free, she was
from the housekeepers to the           recruited by another home to reduce its
kitchen staff and receptionists        restraints. After she was gone, the home
knows what to do if someone is         began using restraints again. Without
wandering toward an exit or            commitment from others, the home was
sliding down in a chair. And           unable to maintain its restraint-free care.
don t be discouraged if some
people are reluctant to try
restraint reduction. Sometimes it takes their seeing actual progress before they
really believe it can work.

Recognize up front that reducing restraints takes time.    a big change for
                                                           It   is

many homes and requires a new way of approaching old problems. Don t delay
starting because you re concerned that something might go wrong--something
probably will, but it need not be traumatic , and in fact, could be a learning
experience.
Our home operates on a tight budget. How can we reduce restraints without spending
a lot of money?



      None of the homes we visited identified costs as a barrier to reducing restraints.
      These homes had no extra funds , such as a grant, to reduce restraints.



      In general , the homes we               We don  t have the staff to do that. ' In
      visited reported using their        some nursing homes that may be true;
      staff more creatively rather        however, it will also be true that the same
      than hiring more staff. Two         staff wil~ in all likelihood, not be able to
      homes, however, did create          care properly for residents          in restraints       with
      new positions in conjunction        that Iowa staffing ratio. Understaffed
      with their restraint reduction.
    facilities and facilities that do staff
      One home hired two new              sufficiently to meet residents' needs will find
      certified nursing assistants to     that they are able to use their staff time
      provide one-on-one car;e for        better when they pay more attention                 to
      formerly restrained residents       individual needs and reduce their use of
      needing extra attention; the        restraints. " (S.   G. Burger,    Ina"111'oDriate Use of Chemical
      other, a rehabilitation aide        and Physical Restraints. National Citizens ' Coalition for
      to walk residents and help          Nursing Home Refonn       (1989):    30-31.

      them with other activities.



      Most homes identified minor costs for providing training and purchasing
      positioning devices such as cushions. In some cases , family members provided
      reclining or rocking chairs to replace gerichairs ,         so the , home incurred no
      expense.



      None of the homes mentioned any renovations related to restraint reduction.
      For example, none moved nurses ' stations or added new rooms. Most already
      had alarm systems in place to alert everyone if a resident wandered out the
      door.
What will restraint reduction mean for our malpractice liability risks?

       The homes we visited
       mentioned an increased              The limitations placed on the use of
       awareness of liability risks       physical restraints in the Omnibus
       but no increased costs. In         Reconciliation Act of              1987       (OBRA) and the
       fact, one home shopped             guidelines interpreting those limitations are

       around and found a carrier         finally putting to rest the myth that restraints
       that offered a less expensive      must be used in order to avoid legal liability.
       policy. .                          In fact, court decisions never supported that
                                          myth, even through all the years when the
                                          use of restraints had become so widespread
                                          that their application could be presented as a
                                          part of 'reasonable care ' for the protection of
                                          patients. " (A R Hun~ "Dispelling the Liability Myth,"
                                          Untie the Elderlv       no.   (April      1991): 1)




       Document your residents            One nurse told us how she documented a
       consent to have their              confused woman s consent to have her
       restraints removed.                restraint removed even though this woman
                                          was unable to speak, read, or write. The
                                          woman shook her fist angrily and stomped
                                          her feet at anyone who attempted to apply a
                                          restraint. Although she was unable to
                                          express it in words, this woman clearly
                                          communicated her desire to be free from
                                          restraints. The nurse described her gestures
                                          in the record to document consent.




       Document carefully every aspect of your restraint reduction efforts in each
       resident s care plan. Include the results of any restraint alternatives you have
       tried , goals for the resident , and how the resident will be monitored. In the
       event of a lawsuit, establishing that due care was taken to protect that
       individual from harm becomes vita1.I



   I S. G. Burger
                      Inappropriate Use of Chemical and Physical Restraints National
Citizens ' Coalition for Nursing Home Reform (1989): 8.
               REDUCING RESTRAINTS

How can we get started reducing restraints?

      Assess the condition of all
      restrained residents before you            One home restrained a gentleman
      get started. Know whether they            because he fell repeatedly. In reviewing
      suffer from low blood pressure            his complete medical history, staff
      when changing position from lying         discovered he suffered low blood
      to sitting or sitting to standing,        pressure--which made him dizzy and
      whether they suffer from low              apt to fall--because the dose of his
      blood sugar between meals , what           blood pressure medicine was too high.
      nonpsychoactive medications they           By checking his blood pressure every
      take , and whether they cause              day, and administering the medicine
      sleepiness or other side effects.          only when indicated, this home reduced
      These conditions may increase the          the dose by two-thirds. Now he is
      risk of falls and need to be               unrestrained, and walks around safely.
      addressed before removing
      restraints.
      Review the restraint use among your residents. Find out who is using physical
      restraints or psychoactive drugs , which type of restraint or drug, how often it is
      used , and why it is used.

      Using the information from your review,    categorize the physically restrained
      residents according to some plan. For example , categorize them according to
      why they are restrained (wandering; leaning in chairs; unknoWn) or how often
      they are restrained (never , but has a restraint order; rarely; regularly; always).

      Involve your residents                The administrators or medical directors
      physicians and/or your               usually wrote letters or made calls to ensure
      consultant pharmacist in             their residents ' physicians knew about the
      assessing the proper use             homes ' new policies related to OBRA.
      psychoactive drugs. The              Despite their efforts, not all physicians
      pharmacist can help you              cooperated. Each home told us that at least
      determine whether the use            one physician was reluctant to reduce
      of these drugs is proper             psychoactive drugs. Homes that used the
      under OBRA and can                   same consultant pharmacist each month
      recommend that the                   noted that, over time, the physicians and
      physicians reduce doses or           pharmacists built a professional relationship
      change drugs. Consider               that helped those homes reduce the use of
      designing assessment forms           psychoactive drugs.
      to trigger questions about
      particular diagnoses that
      need to be present if certain drugs   are used.
Begin reducing psychoactive drugs before physical restraints for those residents
who are restrained both physically and with drugs. Reducing the drugs first can
increase alertness , thereby decreasing the likelihood of falls after physical
restraints are removed.




                                   Nursing homes are finding creative solutions
                                   to replace restraints. At one home, a
                                   confused woman had been restrained in a
                                   chair with a vest because she liked to lean
First reduce physical              over and play with her toes, and often ended
restraints for those residents     up on the floor. By simply giving   her a large
who you think will fare best.     stuffed animal instead of strapping her in a
Your groups of why or when         chair, she forgot about her toes and played
residents are restrained can       with the animal. At another home, staff had
help you decide where to          restrained a confused blind woman in a
start. This way you can           gerichair. Knowing she was Catholic, they
build experience , confidence     gave her rosary beads when they moved her
and momentum for the              from the gerichair. She remained occupied,
tougher cases later on.           content, and safe without the restraint.




Limit reduction to a few residents per week per unit to keep the process
manageable. If all restraints are removed at once , everyone in the home may
feel overwhelmed , and the risks for problems such as falls might increase.
Everyone s biggest concern is safety. Once we remove restraints, how do we prevent
our residents from falling, becoming agitated, or wandering?

      Monitor carefully those
      residents whose restraints          To enhance the monitoring of newly released
      you eliminate--make sure           residents, one home made sure that small
      they are in view of the            handbells were within reach when residents
      nurses ' station.                  were out of bed and away from their call
                                         bells or out of sight of the nurses ' station.
                                         They asked the residents to ring the bell
                                         before they tried to get up unassisted, and
                                         staff--still afraid of falls--made sure they
                                         answered those bells quickly.




      Strengthen the residents so their risk of falls will decrease. After a period
      limited mobility due to restraints , they need to regain their lost muscle tone.




      Some homes we visited had          At one home, the staff had a problem with a
      an initial. increase in falls      woman wandering into the nurses ' station
      after reducing restraints , but    where she maneuvered among. the desks and
      no more serious injuries.          cabinets by reaching for chairs on wheels
      Others had no increase in          keep her balance. This led to a few falls.
      falls at all. In fact , some       Rather than replacing the chairs or
      nurses and nursing assistants      restraining the woman, the charge nurse
      were surprised that many           asked a blind woman who enjoyed
      residents stayed seated            crocheting to crochet a long strand in a

      without a restraint.               bright color. The charge nurse then hung the
                                         crocheted strand across the entrance to the
                                         nurses ' station. The wanderer no longer
                                         entered that hazardous area,    but was free to
                                         wander safely in the halls.
Analyze the fall and incident data      One home analyzed its incident reports
and use it to prevent further           and found that most incidents--falls
incidents. For example , is there a     and episodes of wandering--were
pattern to someone s wandering?         occurring in the lobby during shift
Do most falls occur at a certain        changes. The home changed this
time or in a certain place? Is a        pattern by simply assigning a nursing

piece of furniture tipping too          assistant to the lobby area during shift
easily?                                 changes.




Log all agitated behaviors         At one home, the consultant pharmacist
using precise language. Note       expressed frustration at the inadequate
what might have caused the         documentation of agitated behavior.
behavior, and what worked          Because agitation can manifest itself in
to resolve it. If you can find     many ways-. biting, yelling, wandering, head
the cause--too    much noise       banging--how could she know whether the
too. cold , loneliness , hunger-   particular agitation documented was caused
you can avoid the behavior         by an improper drug or dose, or by some
by addressing the cause            other incident? But if the nurse or aide
without resorting to               documents the specific behavior, like spitting,
restraints. For example            it helps the pharmacist make the proper
make sure a tray of late-          recommendations in the drug regimen
night snacks is available , and    reviews.
a sweater or blanket is
within reach.
How will restraint reduction affect our activities program?

      Most of the homes we
      visited expanded their               Many of the homes we visited have increased
      activities while reducing            the use of music in their activities. Some
      restraints , particularly            provide headphones with soothing or familiar
      activities for confused              music during late afternoon. Others use
      residents. They even used            music in midmorning programs with the
       simple tasks, such as folding       more confused residents, and encourage
       towels or sorting mail , to         clapping, foot tapping, singing, and dancing.
       engage a confused resident.
       Many also noted that the
       nursing assistants were providing more one-on-one activities, such as puzzles
       games , letter writing, or simply visiting, for those residents less interested in or
       suited to group activities.



      Become familiar with your residents ' social histories , and use that information
      to develop activities tht1y will relate to and enjoy. For example , if someone
      worked at a newspaper , perhaps he or she would enjoy starting a newsletter for
      the home with some other residents.


       Develop a mobility program to              One respondent assured us that any
       strengthen residents. Now that            home--even one without much space
      your nursing assistants are free           for activities--can implement an
      from tying and untying restraints          inexpensive mobility program by
      they can devote more time to               purchasing overhead pulleys, pedals for
      walking residents.                         chairs, and games like plastic
                                                 horseshoes, bowling sets, and Velcro
                                                 dart sets. Mobility programs not only
                                                 strengthen residents and improve their
                                                 breathing, but also provide another
                                                 activity for them to enjoy.




      Develop more activities for those periods when falls , agitation, or wandering
      increases. Staff at homes we visited said that late afternoon activities helped
      reduce agitation.
Once we have tried letters, phone calls, and personal meetings, what do we do if a
family member still wants to keep a loved one restrained?

          Present a list of the risks to residents ' well- being with and without restraints.
          The visual impact of the lopsided list weighs heavily in favor of ,restraint
          removal. Some of the homes we visited include such a list in the consent forms
          that families sign.





                                   RISKS                           RISKS
                                   WITH                            WITHOUT
                                   RESTRAINTS                      RESTRAINTS


                                   Falls,€                     Falls
                                   Strangulation, Loss€
                                   of Muscle Tone, Pressure€
                                   Sores, Decreased Mobility,

                                   Depression, Agitation,
                                    Reduced , Bone    Mass
                                    Stiffness, Frustration

                                    Loss of Dignity,

                                    Incontinence, Constipation



          Contact your ombudsman. Maybe the family simply needs to hear from a
          knowledgeable third party that removing restraints is okay.

          Try the same approach you used with those in the nursing home: stress to the
          family that times have changed , and removing restraints will improve the quality
          of their loved one s life. Invite family members to try on a restraint for IO or
          IS minutes.

          Document the residents ' own preferences regarding restraints and share these
          with families.


  One woman told us about her grandmother, who was discharged from the hospital
  to the nursing home. While hospitalized her personality changed completely; she had
  been given H aldol              and restrained physically. The nursing home weaned her from the
  Haldol, and the granddaughter happily               reports that her grandmother is back to her
  former self and is wearing out her tennis shoes 

                                                              by    walking so much.
                  MAINTAINING A€
               RESTRAINT- FREE HOME€
Typically, the night shift has fewer staff than other shifts. How do we make sure that
those on the night shifts leave restraints off?




      Make sure that everyone             At one home, the evening shift staff missed
      from the night shift is             out on some inservice presentations about
      included in training related        restraint reduction. Because most falls at
      to the home s restraint             that home occurred between       and   8 P.
      reduction.                          the evening staff was especially reluctant to
                                          reduce restraints, so their need for training
                                          was great.




      Establish an on-call system so that whenever someone wants to use a restraint
      someone from the leadership team is called first.




      Stress the importance of               certified nursing assistant from a night
      adapting to the needs and           shift told us she wished she knew more
      schedules of the residents.         about drugs and their side effects, because
      This may be especially              she might      less apt to ask the nurses to get
                                                           be


      important for those working         a drug order if she really understood them.
      the night shift , who may be
      used to seeing everyone in
      bed and quiet. Once restraints are removed , interaction among residents and
      the night shift may increase because residents may want to get up and        have a
      snack , or watch late-night television.
Once we ve made progress, how do we maintain our momentum?


      Throwaway your restraining devices to prevent restraint habits from
      resurfacing.




     Reassure everyone that falls have not increased by sharing fall data with them
     and provide a forum for everyone to share their concerns and success stories
     with one another.



                                        One          way     to keep everyone                   in       the home

                                        involved            in   restraint reduction                     and ensure€
                                        that all residents are routinely                                 assessed        is €

                                        start a "Room of the Day" program. Each

     Encourage everyone to'             day,         one resident room                   is   featured, and every

     question any restraints and        department               in   the home must visit there.€
     to make sure other                 Maintenance can check that all equipment 


     nonrestraining approaches          functioning, and that handrails are the right
     are tried routinely.               height and chairs won t tip easily. The
                                        kitchen can bring a favorite snack or a  bud
                                        vase with flowers.                  And           the therapists can
                                        conduct an               assessment. By rotating the
                                        rooms featured each                       day,     theeveryone              in

                                        home           is   involved and every resident

                                        routinely assessed.





     Reinforce your restraint reduction through inservice training. Offer training on
     behavioral approaches to agitation , the side effects of psychoactive drugs
     managing wandering, communicating with residents who suffer Alzheimer
     disease or are otherwise confused , body positioning and range of motion, and
     promoting resident independence.
                                                                       &:




                                           Take a look at your admission forms.
                                           Do they include a box to check for a
Implement a no-restraints                  restraint as needed for safety? If they
admission policy, and be sure              do, revise those forms so it won t be so
your residents ' physicians and            easy to order restraints.        (1.   Rader,   Ma1!ic.
hospital discharge planners know           Mystery. Modification.   Mirth: The Jovful Road to
                                           Restrain/-Free Care. Benedictine Institute for Long
about it. Include thepolicy in
                                           Tenn Care   (1991): 5)
your pamphlets for families.




                                                          One home was part of a small
                                                          chain in which the
Tout your home s success at reducing                      administrators and nursing
restraints , and recruit staff interested in              directors from each home met
working in a restraint-free environment.                  regularly. Shortly after the
                                                          nursing home reforms became
                                                          effective, a local news
                                                         program featured one of the
                                                         chain s homes because of its
                                                         restraint-free care. That
                                                         publicity lit a fire among the
                                                         other homes to follow suit.
           , "





                                 CONCLUSION


    In this guide , we focused on one aspect, albeit one very important aspect, of a
nursing home s responsibilities. Nursing home owners, boards, administrators , and
staff face many complexities in running homes in a manner that is both cost-effective
and conducive to high- quality care. While we have not addressed these other
complexities in this guide , we have sought to provide lessons that are consistent with
them and that come from the homes ' own experiences--not from a vision. of what
could be in an ideal world. Thus , the significance of the lessons we present is in their
origin. And each has   worked in the homes we visited. Readers will have to decide     for
themselves how well they can work in their own homes.

    We recognize that the lessons we present are only a beginning, providing a general
sense of direction rather than a blueprint to success. Further experience almost
certainly will result in many more lessons. The process of removing restraints and
maintaining a restraint- free home is an ongoing one that calls for continuous learning.
It can be frustrating, but as the director of a State nursing home association indicates
it can also be extremely gratifying:

       Our facilities report that there has not been an increase in severity or frequency
       of falls or incidents; that there has been a profound improvement in the quality
       of life for these residents; that mobility programs have been instituted which
       served to increase physical functioning; that the morale of staff has increased to
       a significant degree; and that families visit their relatives in the nursing home
       more often.




   2 Vivienne Wisdom , Executive Director, New Hampshire Health Care
Association Nursing Home Accord Stirs Confusion among States                         " quoted in the   Los
Angeles TimesMarch I8 , I991: AI.
                                APPENDIX A€
                                        Methodology

    We conducted case studies at seven nursing homes to reach an in-depth
understanding of lessons nursing homes had learned by reducing physical and chemical
restraints. We selected homes by randomly picking a sample of 96 homes from the
HCF A Medicare-Medicaid Automated Certification System (MMACS) that met our
criteria. Our criteria included: (I) reduction in the use of physical restraints and
psychoactive drugs between the two most recent certification surveys; (2) location in
Massachusetts , New Hampshire , New York, or Ohio for ease of travel; (3) bedsize
between 51 and ISO, and; (4) portion of residents receiving Medicaid or Medicare
meets or exceeds 50 percent.


    We further narrowed our sample by conducting a screening interview with the
homes ' administrator or director of nursing. During that interview we verified the
information from MMACS and asked some questions about their restraint reduction
efforts , auspices , continuity in leadership positions throughout their restraint reduction
efforts , and whether they had received any special funding to reduce restraints. We
excluded homes that either had turnover in leadership positions while reducing
restraints or had received special funding, such as a grant , to reduce restraints. Based
on the information from MMACS and the screening interview, we selected seven
homes in three States which we believe reflect typical experiences in reducing
restraints (see appendix B). The table below highlights some of their characteristics.

                      # of
 Home       # Beds    Residents    Medicaid      Auspices                    Location
                                                 Nonprofit Independent       Rural
                                                 For Profit Chain            Urban
            115       106                        Nonprofit Independent       Rural
            114       108                        For Profit Chain            Urban
                                                 For Profit Independent      Rural
            130       126                        Nonprofit County            Rural
            100                                  For Profit Chain            Urban


    We visited each home for one or two days and discussed the restraint reduction
process with administrators ,nursing directors , medical directors , consultant
pharmacists , physical and occupational therapists , activity directors , social workers , and
training coordinators. We also spoke with staff nurses and certified nursing assistants


                                            A-
from different shifts to get their perspectives. We used discussion guides with both
closed- and open-ended questions and collected and reviewed any written policies
related to restraints. In some instances , we discussed the home s restraint reduction
with residents ' family members by telephone.

    Prior to visiting these seven homes , we visited six homes during our background
research. Three of these homes are well known for their restraint-free care. During
these visits , we tested our protocols and discussion   guides.


    Although the case studies constituted our primary source of information on how to
reduce restraints , we conducted telephone interviews with administrators and nursing
directors at homes in Florida , Michigan , Oregon , and Vermont. We also talked with
representatives of the following national and State     groups: the National Citizens
Coalition for Nursing Home Reform, American Health Care Association , American
Association of Homes for the Aged , American Medical Directors ' Association
American Occupational Therapists ' Association , American Society of Consultant
Pharmacists , New Hampshire Health Care Association , and Kendal Corporation.
Finally, we spoke with an independent consultant and staff at HCF A, a State survey
agency, and an ombudsman program. Many of these people provided the written
materials that we reviewed for this report (see appendix C).




                                           A -€
                             APPENDIX
                             Homes Selected for Site Visits



Massachusetts

Baldwinville Nursing Home
Hospital Road
Baldwinville , MA 01436

Willow Manor Nursing Home
30 Princeton Boulevard
Lowell , MA 01851

New Hampshire

Exeter Healthcare
131 Court Street
Exeter, NH 03833

Maple Leaf Health Care Center
198 Pearl Street
Manchester, NH 03104

Ohio

Arbors at Waterville
555 Anthony Wayne Trail
Waterville , OH 43566

Blakely Care Center
600 Sterling Drive
North Baltimore , OH 45872

Countryside Continuing Care Center
1865 Countryside Drive
Fremont, OH 43420




                                         B - I€
                            APPENDIX C

                                     Bibliography

    Many of the people we interviewed shared publications with us , which we list
below. This list does not represent everything that has been published about restraint
reduction , but many of these publications offer extensive bibliographies.



S. G. Burger Inappropriate Use of Chemical and Physical Restraints National Citizens
       Coalition for Nursing Home Reform , I 989.

M. Downs Eliminating Restraints Resource Manual: A Guide for Nursing Home Staff,
     The Vermont Free-To- Be Project , 1990.

Hospital Association of New York State Restraints and the Frail Elderly Patient:
      Practical Considerations for Hospitals and Nursing Homes I 990.

Massachusetts Executive Office of Elder Affairs A Practical Guide to Reducing the Use
      of Restraints in Nursing Homes 1990.

National Citizens ' Coalition for Nursing Home Reform Nursing Home Reform Law:
      The Basics 1991.

J. Rader Magic, Mystery, Modification  Mirth: The Joyful Road to Restraint-Free
      Care Benedictine Institute for Long Term Care , 1991.




                                        C - I

